NO. 20-7038

IN THE SUPREME COURT OF THE UNITED STATES
DAVID PAUL MARTINEZ,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Ninth Circuit

REPLY BRIEF FOR PETITIONER

GEOFFREY A. HANSEN
Acting Federal Public Defender
VARELL L. FULLER*
Assistant Federal Public Defender
*Counsel of Record
LARA S. VINNARD
Assistant Federal Public Defender
Office of the Federal Public Defender
for the Northern District of California
San Jose Branch
55 South Market Street, Suite 820
San Jose, CA 95113
varell_fuller@fd.org
(408) 291-7753

REPLY BRIEF FOR PETITIONER
This Court should grant certiorari to resolve whether the court of appeals
erred under 18 U.S.C. §§ 922(a)(33), 922(g)(9) and 924(a)(2), in affirming Mr.
Martinez’s convictions on plain error review after Rehaif v. United States, 139 S.Ct.
2191 (2019).
The government does not contest that the questions presented by Mr.
Martinez satisfy the considerations governing review on certiorari pursuant to
Supreme Court Rule 10. Instead, the government argues that this Court should
defer resolving whether the court of appeals erred, because the court of appeals
“separately vacated and remanded the case for further consideration” regarding the
vehicle search. Opp. 1-2. At the same time, the government does not dispute that
this Court has authority to grant certiorari now, and suggests in the alternative
that the Court may wish to hold the petition pending its decision in Greer v. United

States, No. 19-8709.
Either “before or after rendition of judgment,” this Court may grant certiorari
to review a case in the court of appeals. 28 U.S.C. § 1254(1). This Court has
granted certiorari to review interlocutory decisions in cases where, for example, the
court of appeals resolved questions of law that are fundamental to the further
conduct of a case, and that would otherwise qualify as a basis for certiorari. See
Stephen M. Shapiro et al., Supreme Court Practice § 4.18, at 283 (10th ed. 2013)
(hereinafter “Supreme Court Practice”) (“where . . . there is some important and
clear-cut issue of law that is fundamental to the further conduct of the case and that

1

would otherwise qualify as a basis for certiorari, the case may be reviewed despite
its interlocutory status”); see also Gillespie v. United States Steel Corp., 379 U.S.
148, 153 (1964) (granting certiorari to review legal issue that was fundamental to
further conduct of the case, and where “the eventual costs . . . will certainly be less
if we now pass on the questions presented . . . rather than send the case back with
those issues undecided”).
In addition, the Court has granted certiorari prior to final judgment where
the court of appeals’ decision was clearly erroneous under this Court’s precedent.

Mazurek v. Armstrong, 520 U.S. 968, 975 (1997) (per curiam) (granting certiorari
prior to final judgment because “the Court of Appeals’ decision [was] clearly
erroneous under [Supreme Court] precedents”).
The Court has also granted certiorari prior to final judgment “where there
was a conflict on a question of law with another court of appeals . . . that would
justify review of a final decree or judgment.” Supreme Court Practice, § 4.18, at 284
(citing, inter alia, United States v. General Motors Corp., 323 U.S. 373, 374, 377
(1945)).
Thus, in both criminal and civil cases, this Court has frequently granted
certiorari to review questions of law resolved by the court of appeals, where the
court had reversed or remanded on other grounds. See, e.g., Honeycutt v. United

States, 137 S.Ct. 1626, 1630 (2017) (rejecting court of appeals’ interpretation of
federal forfeiture statute, 21 U.S.C. § 853, where court of appeals had affirmed
convictions in part and remanded for resentencing in part); United States v. Sun-

2

Diamond Growers of California, 526 U.S. 398, 403, 414 (1999) (rejecting court of
appeals’ interpretation of illegal gratuity statute,18 U.S.C. § 201(c)(1)(A), where
court of appeals had reversed and remanded for new trial); United States v.

Robertson, 514 U.S. 669, 670 (1995) (rejecting court of appeals’ interpretation of 18
U.S.C. § 1962(a) where court of appeals had reversed some counts of conviction,
affirmed other counts, and remanded for resentencing); United States v. Padilla,
508 U.S. 77, 82 (1993) (rejecting court of appeals’ analysis of standing under Fourth
Amendment, where court of appeals had affirmed in part, reversed in part, and
remanded in part for further proceedings); see also Sandifer v. U.S. Steel Corp., 571
U.S. 220, 224 & n.4 (2014) (rejecting court of appeals’ interpretation of 29 U.S.C. §
203(o), where court of appeals had reversed in part and remanded for further
proceedings).
Here as well, the questions of law presented by Mr. Martinez warrant this
Court’s exercise of certiorari jurisdiction under each of the criteria set forth above.
First, the questions presented are fundamental to further conduct of the case:
specifically, whether Mr. Martinez’s convictions under 18 U.S.C. §§ 922(g)(9) and
924(a)(2) should be reversed on plain error review after Rehaif. Second, Mr.
Martinez has argued that the court of appeals clearly erred under this Court’s
precedents. Third, the circuits have split with respect to each of the questions
presented, and this Court has already granted certiorari to review two related
questions.

3

Accordingly, for the reasons set forth in Mr. Martinez’s petition for writ of
certiorari, and as set forth herein, Mr. Martinez respectfully asks this Court to issue
a writ of certiorari with respect to the court of appeals’ application of Rehaif to 18
U.S.C. §§ 921(a)(33) and 922(g)(9), or to hold his petition until the Court resolves

United States v. Gary, No. 20-444 and Greer, and then dispose of his petition in a
manner consistent with Gary and Greer.
Respectfully submitted,
Dated: March 17, 2021

GEOFFREY A. HANSEN
Acting Federal Public Defender
VARELL L. FULLER*
Assistant Federal Public Defender

*Counsel of Record

LARA S. VINNARD
Assistant Federal Public Defender
Office of the Federal Public Defender
for the Northern District of California
San Jose Branch
55 South Market Street, Suite 820
San Jose, CA 95113
(408) 291-7753

4

